The Library of Congress
Office of the Inspector General




                           Library Wide
   Implementing an Effective Succession
     Planning Program Would Help the
     Library Achieve Its Strategic Goals


               Audit Report No. 2004-PA-105
                                 March 2005
UNITED STATES GOVERNMENT LIBRARY                                     OF CONGRESS
Memorandum                                              Office of the Inspector General

TO:          Distribution                                                March 31, 2005

FROM:        Karl W. Schornagel
             Inspector General

SUBJECT: Implementing an Effective Succession Planning Program
         Would Help the Library Achieve Its Strategic Goals
         Final Audit Report No. 2004-PA-105

This transmits our final audit report on Succession Planning prepared by the Office of the
Inspector General, Office of the Librarian. The Executive Summary begins on page i,
and recommendations appear on pages 4 to 8. The recommendations apply as follows:
recommendation I.1, the Librarian; recommendation I.2, Human Resources Services
(HRS); recommendation II, the Strategic Planning Office (SPO) and Operations
Management and Training Office, and recommendation III, all service and infrastructure
units.

The responses of HRS, SPO, Congressional Research Service, and Integrated Support
Services to our draft report are briefly summarized in the Executive Summary and in
more detail after individual recommendations appearing on pages 4, 6, and 8. Their
complete responses are attached as Appendices I through IV.

Based on HRS’ and SPO’s responses to the draft report, we consider recommendations
I.2 and II resolved. HRS’ draft, Workforce and Succession Planning Interim Guidance,
provides a timeline that resolves recommendation I.2. SPO has communicated to the
service and infrastructure units the need for establishing a human capital goal in their
Annual Program Performance Plans.

We request that the Librarian and Library Services provide an action plan that addresses
recommendations I.1 and III, respectively, in accordance with LCR 1519-1, Section 4.B.

We appreciate the cooperation and courtesies extended by Library staff during the audit.
Distribution: James H. Billington
              Donald L. Scott
              Terry A. Bickham
              Laura E. Campbell
              Mary Levering
              Karen Lloyd
              Deanna B. Marcum
              Rubens Medina
              Daniel P. Mulhollan
              Marybeth Peters
              Teresa A. Smith
The Library of Congress                                       Final Audit Report No. 2004-PA-105
Office of the Inspector General                                                       March 2005

                                  TABLE OF CONTENTS


EXECUTIVE SUMMARY…………………………………………………………...                                              i

INTRODUCTION…………………………………………………………………….                                                1

BACKGROUND……………………………………………………………………...                                                1

OBJECTIVES, SCOPE, AND METHODOLOGY.…………………………………..                                     2

FINDINGS AND RECOMMENDATIONS………………………………………….                                          3

I.    The Library Needs to Formalize a Succession Planning Program…………...….            3
      Recommendations...………………………………………………………….….                                      4
      Management Response and OIG Comments…………………………………....                            4

II.   Succession Plans Should Be Linked to Strategic and Training Plans..………....       5
      Recommendation………………………………..………………………………                                         6
      Management Response and OIG Comments………………………………...….                            6

III. Service Units Must Identify Critical Positions, and Consider the
     Impact of the Library’s Hiring Process on Succession Planning..……………...           6
     Recommendation………..………………………………………………………                                          8
     Management Response and OIG Comments…………………...……………….                             8

APPENDICES
    Response from Human Resources Services……………………………………..                            10
    Response from Strategic Planning Office……………………………………….                           12
    Response from Congressional Research Service………………………………..                        14
    Response from Integrated Support Services…………………………………….                          20
The Library of Congress                                            Final Audit Report No. 2004-PA-105
Office of the Inspector General                                                            March 2005

                                   EXECUTIVE SUMMARY

As part of a reexamination of what the federal government should do, how it should do it, and in
some cases, who should be doing it, it is important for federal agencies to focus not just on the
present, but also on future trends and challenges. Succession planning and management can help
an organization become what it needs to be, rather than simply to recreate the existing
organization.

Leading organizations go beyond a succession planning approach that focuses only on replacing
individuals and engage in broad, integrated succession planning and management efforts that
focus on strengthening both current and future organizational capacity. As part of this broad
approach, these organizations identify, develop, and select successors who are the right people,
with the right skills, at the right time, for leadership and other key positions.

The Office of the Inspector General conducted a survey of the Library’s succession planning
efforts, strategies, and progress to determine whether current efforts will ensure a smooth
transition to the future. We interviewed Library managers and discussed organizational
transformation and ways to identify and develop leaders, managers, and a workforce necessary to
face the array of challenges that will confront the Library in the 21st century.

We found that the Library’s service units (with the exception of the Congressional Research
Service (CRS) and Copyright Office) do not have succession plans, and have not identified
critical positions to ensure the needed skills and abilities for the continuity of leadership and
knowledge. Though Human Resources Services (HRS) has taken a leadership role in
introducing succession planning, the Library’s service units are not mandated to plan. Following
our draft report, HRS issued a draft Workforce and Succession Planning Interim Guidance to the
service and infrastructure units. HRS acquired a strategic workforce planning tool, and is
undertaking several pilot programs. Therefore, we will review this topic again after HRS’ pilot
projects have been completed. Our findings and recommendations to date are summarized as
follows:

The Library Needs to Formalize A Succession Planning Program

HRS introduced the concept of succession planning and managing human capital to effect a
smooth transition of responsibilities when staff retire. Although HRS issued some guidance,
senior management has not mandated that the service and infrastructure units develop succession
plans. Two service units, CRS and Library Services (LS), received funding from Congress,
$724,723 and $505,000, respectively. CRS implemented a succession plan recruitment program.
Though LS received funds, it was not authorized to create new positions. Hence, it developed a
career enhancement program that filled positions internally. Without the implementation of
succession plans by the service and infrastructure units, the Library may not be prepared to
immediately fill gaps in skill sets, leadership, and institutional knowledge that can result from a
retiring workforce. We recommend that the Librarian issue a mandate for Library-wide
succession planning. Also, we recommend that HRS broaden its communication channels and
educate service units about new initiatives, programs, and flexibilities for shaping and
developing their human capital (see page 4).



                                                 i
The Library of Congress                                             Final Audit Report No. 2004-PA-105
Office of the Inspector General                                                             March 2005

Succession Plans Should Be Linked to Strategic and Training Plans

Managers are required to develop and implement Strategic and Training plans. However, there
is no Library guidance for linking succession plans to strategic and training plans. Some
managers are in the process of developing succession plans without linking them to their
strategic and training plans. Without linking strategic, training, and succession plans,
management cannot effectively and efficiently track staffing needs, analyze skill sets, plan staff
development, and monitor processes for ensuring accountability in human capital. Effective
training and development programs are an integral part of a learning environment that can
enhance the Library’s ability to attract and retain employees with the skills and competencies
needed to achieve Library goals. We recommend that the Library’s mandate for succession
planning require managers to link succession plans to strategic and training plans (see page 6).

Service Units Must Identify Critical Positions and Consider the
Library’s Hiring Process and Its Impact on Succession Planning

Succession planning involves workforce analysis. Service and infrastructure units must identify
mission critical occupations and competencies needed in the current and future workforce, and
develop strategies to close any gaps through a systematic process. Also, managers must be ready
to hire staff when a mission critical position becomes vacant. In our total sample of 119
vacancies, 66 were deemed critical and 24 were filled. The 24 vacancies took from 9 to 314
calendar days to fill, with a median of 177 days. The Library is unable to expeditiously fill
critical vacancies, which can adversely impact hiring the best applicant for a mission critical
position. Currently, service and infrastructure units have not identified mission critical positions
nor adequately considered the Library’s lengthy hiring process to fill critical vacancies. We
recommend that all service and infrastructure units identify their mission critical positions and
assess their readiness for job vacancy posting (see page 8).

We received responses to our draft report from HRS, the Strategic Planning Office (SPO), CRS,
and Integrated Support Services (ISS). We did not receive a response from LS. In its response
to the draft report, CRS agreed with our findings and recommendations, but asserted that their
succession plan was linked to their Annual Program Performance Plans (AP³s); hence, it is
already linked to its strategic and training plans. Since the draft report, CRS has completed its
reorganization and identified all of its critical positions. SPO agreed with the findings, but
disagrees with HRS leading the Library’s succession planning efforts. HRS concurs with our
recommendation that it should broaden its communication channels and educate service units
about new initiatives, programs, etc., related to human capital. HRS issued a draft Interim
Guidance to the service and infrastructure units, and plans to brief the Executive Committee
when the Interim Guidance is finalized. ISS concurred with our finding and recommendation,
and is in the process of filling its critical positions. These written responses are included as an
appendix to the report.




                                                 ii
The Library of Congress                                                   Final Audit Report No. 2004-PA-105
Office of the Inspector General                                                                   March 2005

                                           INTRODUCTION

This report presents the results of our survey of the Library’s succession planning efforts.
Succession planning is the development of workforce planning strategies. According to the
Government Accountability Office 1 to have a good succession plan, agencies must glean what
competencies they have now and determine what competencies and skills will be needed in the
future to meet the agency’s overall mission and goals. Human Resources Services (HRS) has
taken the initiative to issue succession planning guidance. However, there is no succession
planning directive, and service units are not aware of HRS assuming a leadership role in
succession planning.

The Library is in a period of profound transition. The Library and its staff will undergo
fundamental restructuring during the years ahead, changing how people are hired, and how the
Library itself is organized. The Library is responding to the challenges of both the evolving role
of the federal librarian and the needs of e-government by leading the National Digital
Information Infrastructure and Preservation Program, and by beginning to assess the
competencies and qualifications needed for its future workforce.

Strategic workforce planning should ensure that the Library’s human capital is aligned with its
current and programmatic goals and be the centerpiece of the change initiative to transform the
Library. Planning and preparing an integrated approach, including training and development
efforts, is key to positioning the Library to be able to address current problems and meet
burgeoning demands.

                                            BACKGROUND

Many employees have been with the Library for 30 years or more, and are very knowledgeable
about the collections. However, this may become a problem in the future, because many of these
employees are becoming, or are already, eligible for retirement. Finding competent employees
to replace them could be difficult, and could impact the Library’s vision for the 21st century of
“leading the nation in ensuring access to knowledge and information and in promoting its
creative use for the Congress and its constituents.”

Succession planning was a high-risk area identified in KPMG’s 2 risk analysis report dated
September 20, 1999. A high priority of the Library is to reduce its arrearage in cataloging. Only
personnel with the knowledge of the cataloging process can assist with arrearage reduction
efforts. Hence, HRS is assisting Library Services with its human capital initiatives by piloting a
program using the National Regulatory Commission’s Strategic Workforce Planning Tool
(SWPT). It allows managers to project and analyze staff skills and skill gaps.




1
  GAO’s Director of Strategic Issues testimony before the House Government Reform Subcommittee on Civil
Service and Agency Organization hearing on October 1, 2003.
2
  KPMG LLP, an external auditor, is the U.S. member of KPMG International.


                                                      1
The Library of Congress                                                   Final Audit Report No. 2004-PA-105
Office of the Inspector General                                                                   March 2005

                          OBJECTIVES, SCOPE, AND METHODOLOGY

The Office of Inspector General began the succession planning audit in April 2004 with a survey.
Our survey objectives were to ascertain if Library managers are taking measures to ensure that
there are no significant skill gaps when considering expected retirements and changes to Library
operations, and to determine whether the Library is identifying and using human capital
flexibility tools to assist in transition efforts.

Our methodology consisted of interviewing the Deputy Librarian, the Chief of Staff, and service
unit managers; reviewing pertinent statistics, Annual Program Performance Plans (AP³s),
Congressional budget requests, justifications, and House and Senate reports; and assessing the
Service Units’ succession planning progress. We reviewed HRS’ guide to workforce and
succession planning, “Building the Library’s Future Workforce.” It contains a listing of HRS’
activity in succession and workforce planning, an overview, a description of SWPT, workforce
strategies to fill the skill gaps inclusive of current hiring flexibilities, and a workforce and
succession planning template.

Additionally, we conducted a survey of the Library’s mission critical positions. We provided the
service and infrastructure units with a judgmental sampling of 119 vacant positions. We asked
the service units to identify critical vacancies, the effective date of filling vacancies, and how the
vacancies were filled; i.e., permanent, temporary, or contractor. We did not analyze the specific
causes for protracted hiring. Hence, our survey results represent only the time from the
retirement/resignation date to the effective date of filling vacancies.

Our survey was conducted in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States, 2003 revision, and LCR 1519.1, Audits and Reviews
by the Office of Inspector General, October 18, 1999. We had planned to review and analyze the
internal controls and policies of every service unit’s succession plan, determine if each plan was
based on expected workload estimations and skill sets, and if the plans incorporated a
recruitment/retention plan for leadership and other key positions as identified by the service
units. However, we decided to delay further audit work and issue a report based on our current
fieldwork observations. Additionally, HRS had recently acquired a strategic workforce planning
tool and was undertaking several pilot programs, and only one service unit (CRS) had a
formalized succession plan. 3 We can better analyze the effectiveness of the Library’s succession
planning efforts after plans are developed and implemented.




3
  Copyright completed a succession plan, Human Capital Management Plan, FY 2004-2008, after the end of our
fieldwork and draft report. It is linked to the strategic plan.


                                                      2
The Library of Congress                                                        Final Audit Report No. 2004-PA-105
Office of the Inspector General                                                                        March 2005

                               FINDINGS AND RECOMMENDATIONS

Service units and HRS recognize the challenges posed by succession such as leadership and skill
gaps, and breaks in work continuity and knowledge. Despite these challenges, the Library has
not adopted a succession planning program and management initiatives that adequately prepare it
for the future.

HRS sponsored a human capital management forum Workforce and Succession Planning in
November 2003 to introduce the Library to succession challenges. 4 Planning is based on GAO
principles of setting a strategic direction, conducting workforce gap analysis, formulating
workforce strategies to fill the gaps, and evaluating and revising strategies. However, the
Librarian needs to empower HRS to take a stronger leadership role and communicate to the
service and infrastructure units how succession planning can be accomplished without additional
Congressional funding. Top management must support HRS’ succession planning efforts to
provide criteria and expertise in overseeing a succession planning program. Also, service and
infrastructure units must make it a priority to have a plan that identifies mission critical positions,
considers existing time factors for hiring personnel, and links succession plans to strategic and
training plans.

I.       The Library Needs to Formalize A Succession Planning Program

There is no cohesive Library effort or a HRS directive for succession planning. HRS has
provided succession planning guidance and forums on human capital management. The service
units have gathered retirement eligibility information, but with the exception of CRS and
Copyright, do not have formalized succession plans. Without a fully structured Library-wide
succession planning effort, service units hire staff as vacancies occur. As a result, the Library as
a whole cannot adequately ensure continuity of leadership, address transformation challenges,
and implement a strategic alignment for carrying out its mission. Furthermore, there could be a
gap of institutional knowledge and expertise.

HRS has researched and discussed with the Executive Committee different initiatives for
succession planning, recruitment incentives, contractual arrangements, training, reassignments,
etc. However, it needs a stronger leadership role, and senior level management must support its
effort by making succession planning a management priority. Our interviews disclosed that
service units are aware of the need for succession plans, but are unsure of how to plan without
additional appropriations 5 for staff that may, or may not, retire in the ensuing years. It is this
uncertainty and the lack of a Library-wide succession planning program that has encumbered the
planning process, resulting in only one service unit having a succession plan and another a draft,
during our fieldwork and draft report phases. Standards for Internal Control in the Federal
Government (GAO/AIMD-00-21.3.1), November 1999, state that effective management of an
organization’s workforce—its human capital—is essential to achieving results and an important
part of internal control. Management should view human capital as an asset rather than a cost.


4
  In March 2005, HRS issued a draft Workforce and Succession Planning Interim Guidance to the service and
infrastructure units. A final report will be presented to the Executive Committee after resolution of the comments.
5
  Copyright is the exception. Sixty-six percent of its funding is derived from public deposits.


                                                          3
The Library of Congress                                            Final Audit Report No. 2004-PA-105
Office of the Inspector General                                                            March 2005

Only when the right personnel for the job are on board and are provided the right training, tools,
structure, incentives, and responsibilities is operational success possible.

HRS has focused on developing criteria for new senior level positions, analyzing Library
Services cataloger positions, and providing the service units with new guidance on available
programs, initiatives, and flexibilities for shaping and developing human capital within the
present budgetary constraints. However, communication of these programs, initiatives, and
flexibilities has not filtered down to the service units or resulted in comprehensive planning.
When we interviewed service unit managers, they were not aware of HRS’ succession planning
initiatives or any new hiring flexibilities. Hence, HRS was not consulted. In fact, some
managers expressed little desire to work with HRS to formulate a succession plan.

Service units believe funding is necessary for their succession planning efforts; however, only
two service units have received funding. CRS and Library Services (LS) received $724,723 and
$505,000, respectively, from Congress. As a succession initiative, CRS funded 15 of 23 entry-
level research analysts in FY 1999 and FY 2000. Seven of the 15 analysts who separated were
replaced. CRS keeps track of retired analysts, replacements, and eligible retirees. Library
Services received half of its requested funding, which disallowed funding of full-time equivalent
positions. Hence, money was spent for career enhancement, development, and promotion of
employees internally.

Recommendations:

1.      The Librarian needs to mandate a Library-wide succession planning program that
        empowers HRS with a strong leadership role and provides support from management.

2.      HRS should broaden its communication channels and educate service units about new
        initiatives, programs, and flexibilities for shaping and developing their human capital.

Management Response and OIG Comment

The Strategic Planning Office (SPO) does not concur with recommendation 1. It believes that a
formalized succession planning program is unnecessary since the Deputy Librarian is using the
Annual Program Performance Plans (AP³s) during performance discussions with the service and
support unit heads. Progress on goals and targets are reported on a semi-annual basis. We
disagree with SPO’s comment. Succession planning is a function of HRS and must not be done
in isolation, but on a broad scale that addresses Library-wide needed skills and leadership
development. CRS disagrees with being included in this recommendation since they have a
succession plan that is linked to the strategic and training plans. Our recommendation is library-
wide, inclusive of all service units. Hence, we affirm our recommendation.

HRS concurs with recommendation 2. In support of the recommendation, HRS states that it has
made more use of the Intranet, redesigned the Employment Web Site, and expanded the use of
LC Events to push information directly out to the customers rather than relying on senior
management and service unit administrative staff to communicate HRS initiatives.




                                                 4
The Library of Congress                                             Final Audit Report No. 2004-PA-105
Office of the Inspector General                                                             March 2005

Additionally, HRS has taken the initiative in leading the Library’s succession planning by
issuing a library-wide draft, Workforce and Succession Planning Interim Guidance. The draft
guidance outlines a process that will provide service and infrastructure units with workforce and
succession planning data, and a systematic means to identify their staffing requirements each
fiscal year. The Interim Guidance will be incorporated into an appropriate directive within one
year.

We commend HRS for their action and consider this recommendation resolved.

II.     Succession Plans Should Be Linked to Strategic and Training Plans

Service units are considering formal details, reassignments, cross training, and skills gap analysis
in developing staff for the future. These plans comprise pieces of strategic, training, and
succession planning, but are not integrated. Without linking strategic, training, and succession
plans, management cannot effectively and efficiently track staffing needs, analyze skill sets, plan
staff development, and monitor processes as a cohesive initiative for ensuring accountability in
human capital. Effective training and development programs are an integral part of a learning
environment that can enhance the Library’s ability to attract and retain employees with the skills
and competencies needed to achieve Library goals.

The Government Employees Training Act, as amended, 5 USC 4101-4120, 5 CFR Part 410
states that an agency should have a formal process to ensure that strategic changes are promptly
incorporated in training and development efforts as well as other human capital strategies as
needed. However, there is no Library requirement or emphasis on linking a succession plan to
strategic and training plans.

SPO believes that the Library’s improved strategic plan ensures that all service and support units
address human capital activities in the AP3s. However, GAO guidance states that agencies
should have a coherent overall human capital strategy, as evidenced in its strategic plan,
performance plan, or separate human capital planning document; and the strategy should
encompass human capital policies, programs, and practices to guide the agency. Additionally,
the Library should have a specific and explicit workforce planning strategy, linked to the overall
strategic plan that allows for identification of current and future human capital needs.

The Library’s Strategic Plan for Fiscal Years 2004-2008 consists of a human capital
management goal, the future development of the AP3s serving as the basis for detailed planning
and coordination of support requirements between organizations, and the annual goals and
targets as forming the basis for individual annual performance plans wherever such plans are
required by management within the organization. However, the plans do not flow from the top
down and from the service unit to the Library’s strategic plan. A detailed succession plan should
encompass the service units’ goals and objectives with a link to their strategic and training plans.




                                                 5
The Library of Congress                                            Final Audit Report No. 2004-PA-105
Office of the Inspector General                                                            March 2005

Recommendation:

The Strategic Planning Office and the Office of Operations Management and Training should
provide guidance and support to service and infrastructure units linking succession plans to
strategic and training plans.

Management Response and OIG Comment

SPO concurs, theoretically. It believes that the Librarian should place a stronger emphasis on
human capital planning by establishing a requirement for each service unit head to create a
human capital goal and appropriate targets in their AP³s. We do not disagree, but believe that
HRS should lead the succession planning effort. Additionally, SPO plans to review the service
and support units’ fiscal year 2007 AP³ objectives and/or targets associated with human capital
planning. It is emphasizing the Librarian’s February 10, 2005 recommendation for a larger
succession planning strategy to include the expansion of employee training and development
efforts. The Office of Human Resources Services, Office of Workforce Development, and the
Office of Management and Training have been given the lead for this goal.

We consider this recommendation resolved.

III.    Service Units Must Identify Critical Positions and Consider the
        Library’s Hiring Process and Its Impact on Succession Planning

Service units are not identifying through a systematic process, mission critical occupations and
competencies needed in the current and future workforce. Thus, the Library is missing the
opportunity to expeditiously fill critical positions and undermining efforts to minimize skill gaps.

We surveyed CRS, the Copyright Office, HRS, Integrated Support Services (ISS), the Law
Library, LS, the Office of Security and Emergency Preparedness, the Office of Strategic
Initiatives, and the Office of Workforce Diversity on their respective vacant positions due to
resignations or retirements. Our survey sample consisted of 119 vacancies from October 2003 to
May 2004. Survey respondents indicated whether a position was critical, the effective fill date,
and how the job was filled; i.e., permanent, temporary, or a contracted position.

The service units and infrastructures identified 66 vacancies as critical. Thirty-four positions
were filled with 28 permanent employees, 3 temporary employees, and 3 contractors (shown in
table 1 on the next page).




                                                 6
The Library of Congress                                                                              Final Audit Report No. 2004-PA-105
Office of the Inspector General                                                                                              March 2005

    Table 1
                                                              Critical Vacancies

                                                   Number of          Number                      How Positions Filled
                                                   Vacancies        Identified as
    Library Unit                                    Per Unit          Critical        Permanent        Temporary           Contractor
    Congressional Research Service                     19                5                5
    Copyright                                           9(a)             1                1
    Human Resources Services                            3                 2               1                                    1
    Information and Technology Services                 9(b)             1
    Integrated Support Services                         9                 9                8                 1(c)
    Law Library                                        4                 2                 1                 1
    Library Services                                   57               37(d)              8                 1                 2
    Office of Security and Emergency
    Preparedness                                        6                6(e)              1
    Office of Strategic Initiatives                     2                 2                 2
    Office of Workforce Diversity                       1                1                 1
                                     Total             119               66                28                3                 3


(a) Copyright identified the remaining 8 vacancies as important and plans on filling them.
(b) A contractor assumed duties of vacant position held by permanent employee.
(c) Temporary position will become permanent. Vacancy filled before employee left Library.
(d) Library Services filled seven of its 37 vacancies before or the same day of retirement or resignation.
(e) Five of the six vacancies are police officers. The Library does not have the authority, PL 108-83, to hire officers.


Ten positions were filled either before or the same day of the employee’s separation. Of the
remaining 24 vacancies (refer to Figure 1 on the next page), the number of days to fill these
positions from the day of retirement or resignation, ranged from 9 to 314 calendar days. Fifty
percent of these vacancies were not filled for 180 days or more. Two vacancies identified as
critical are on hold. Twenty-nine percent of LS’ 6 critical vacancies were not filled.

Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1), November
1999, state that management should ensure skill needs are continually assessed so that the
organization is able to obtain a workforce that has the required skills that match those necessary
to achieve organizational goals.

Service units have not identified all of their critical positions, and the Library’s hiring system and
merit selection procedures can result in a lengthy hiring process. Job analysis must be conducted
before a position can be posted; therefore, not all identified critical positions are ready for
posting. 7 HRS and the service units are taking longer than originally projected to hire
personnel. 8 In September 2004, HRS issued guidance to its revised merit selection plan that
allows for a less prolonged job analysis and disqualifying applicants in preliminary interviews.
The guidance provides the Library with needed hiring flexibilities.




6
  Library Services instituted a hiring freeze during fiscal year 2004.
7
  Prior to the release of our draft report, CRS staffing needs had not been fully determined due to the reorganization
of its information professionals into the Knowledge Services Group. Current staffing needs have been determined.
8
  HRS is revising its standard from 90 days to 120 days. After extensive discussion, HRS management changed the
standard to conform to the merit selection plan. Per HRS, assuming the vacancy announcement is open for 30 days,
a selection would need to take place within 120 days of the opening of the announcement.


                                                                          7
The Library of Congress                                                                                                                Final Audit Report No. 2004-PA-105
Office of the Inspector General                                                                                                                                March 2005

                                             Figure 1

                                                                                                 Days to Fill Critical Vacancies

                                                                         OWD



                                                                           OSI



                                                                         OSEP
  Critical Vacancies per Library Unit
                                  (Each bar represents one vacancy)




                                                                            LS



                                                                           Law



                                                                           ISS



                                                                          HRS



                                                                      Copyright



                                                                          CRS


                                                                                  0   50   100            150              200          250         300         350
                                                                                                     Calendar Days to Fill Vacancies




Recommendation:

Service and infrastructure units should identify their critical positions, analyze the required skills
and staff competencies for those positions, and assess them for immediacy of posting.

Management Response and OIG Comment

HRS does not concur with our finding. It faults our conclusion, giving reasons for possible
hiring lapses: redistribution of work, out-sourcing, budgetary constraints, cross-training, etc.,
while ignoring our stated scope limitation. HRS cites the number of GS-15 and Senior Level
competitive Library-wide selections filled over the last three years without listing the periodicity
for filling such vacancies or including vacancies below GS-15 as critical. However, the service
units and the Special Assistant to the HRS Director selected vacancies below the GS-15 level as
critical during our survey.

Since HRS’ hiring standard for non-critical vacancies is 120 days, good succession planning
would include the filling of critical vacancies within 120 days. Ten of 24 survey vacancies took
more than 200 days to fill. The service units and HRS should strive towards filling all critical
vacancies in 120 days or less. For example, OPM is able to hire Senior Level competitive
selections in 30 days.




                                                                                                                8
The Library of Congress                                            Final Audit Report No. 2004-PA-105
Office of the Inspector General                                                            March 2005

CRS disagrees with our methodology and mentions all of its vacancies. Our conclusion is based
upon a sample of library-wide vacancies, not every CRS vacancy. We avow the validity of our
conclusion and agree that CRS analyzes the criticality of their positions, although in our sample,
3 of its 5 positions took more than 225 days to fill.

ISS concurs and is in the process of conducting job analysis for 15-20 positions in fiscal year
2005. During fiscal year 2004, ISS planned for, and conducted, job analysis for almost 20 key
positions. Additionally, ISS completed all recruitment and placement work through the merit
selection process for 18 positions, many replacing temporary appointments and retirees. (See
Appendix IV).



Major Contributors to This Report:

Anita Scala, Assistant IG for IT and Security Audits
Cornelia E. Jones, Auditor




                                                9
The Library of Congress                                         Final Audit Report No. 2004-PA-105
Office of the Inspector General                                                         March 2005

                       Response from Human Resources Services                    APPENDIX I
                                                                                   (Page 1 of 2)




                                              10
The Library of Congress                                          Final Audit Report No. 2004-PA-105
Office of the Inspector General                                                          March 2005

                        Response from Human Resources Services                    APPENDIX I
                                                                                     (Page 2 of 2)




                                              11
The Library of Congress                                            Final Audit Report No. 2004-PA-105
Office of the Inspector General                                                            March 2005

                         Response from Strategic Planning Office                   APPENDIX II
                                                                                      (Page 1 of 2)




                                                12
The Library of Congress                                             Final Audit Report No. 2004-PA-105
Office of the Inspector General                                                             March 2005

                          Response from Strategic Planning Office                   APPENDIX II
                                                                                      (Page 2 of 2)




                                                13
The Library of Congress                                        Final Audit Report No. 2004-PA-105
Office of the Inspector General                                                        March 2005

                      Response from Congressional Research Service            APPENDIX III
                                                                                (Page 1 of 6)




                                              14
The Library of Congress                                       Final Audit Report No. 2004-PA-105
Office of the Inspector General                                                       March 2005

                     Response from Congressional Research Service            APPENDIX III
                                                                               (Page 2 of 6)




                                              15
The Library of Congress                                        Final Audit Report No. 2004-PA-105
Office of the Inspector General                                                        March 2005

                        Response from Congressional Research Service          APPENDIX III
                                                                                (Page 3 of 6)




                                               16
The Library of Congress                                       Final Audit Report No. 2004-PA-105
Office of the Inspector General                                                       March 2005

                    Response from Congressional Research Service             APPENDIX III
                                                                               (Page 4 of 6)




                                              17
The Library of Congress                                       Final Audit Report No. 2004-PA-105
Office of the Inspector General                                                       March 2005

                     Response from Congressional Research Service            APPENDIX III
                                                                               (Page 5 of 6)




                                              18
The Library of Congress                                       Final Audit Report No. 2004-PA-105
Office of the Inspector General                                                       March 2005

                    Response from Congressional Research Service             APPENDIX III
                                                                              (Page 6 of 6)




                                              19
The Library of Congress                                       Final Audit Report No. 2004-PA-105
Office of the Inspector General                                                       March 2005

                  Response from Integrated Support Services                  APPENDIX IV
                                                                               (Page 1 of 2)




                                              20
The Library of Congress                                         Final Audit Report No. 2004-PA-105
Office of the Inspector General                                                         March 2005

                    Response from Integrated Support Services                  APPENDIX IV
                                                                                 (Page 2 of 2)




                                              21
